APPENDIX

TABLE OF CONTENTS

Appendix A:
Appendix B:

Court of appeals opinion,
July 30, 2020 ................................................... 1a
District court partial transcript
of sentencing proceedings,
December 11, 2018 ...................................... 30a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No. 18-3745

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
RYAN RANDALL GILBERTSON,
Defendant-Appellant

Appeal from United States District Court
for the District of Minnesota

Submitted: February 14, 2020
Filed: July 30, 2020

Before LOKEN, BENTON, and KELLY, Circuit Judges.

BENTON, Circuit Judge.
A jury convicted Ryan Randall Gilbertson of 14 counts
of aiding and abetting wire fraud, one count of conspiracy

(1a)

2a
to commit securities fraud, and six counts of aiding and
abetting securities fraud in violation of 18 U.S.C. § 1343,
18 U.S.C. § 371, and 15 U.S.C. §§ 78j(b) and 78ff. The district court 1 sentenced him to 144 months’ imprisonment
and ordered him to pay $15,135,361 in restitution. Gilbertson appeals his conviction and the restitution. Having jurisdiction under 28 U.S.C. § 1291, this court affirms.
I.
In 2008, Gilbertson (a former derivatives trader), Michael Reger, and James Sankovitz founded Dakota Plains,
an oil-transporting company. Gilbertson and Reger concealed their involvement, appointing their fathers as officers and sole members of the board of directors. However,
they exercised complete control over the company. Gilbertson effectively controlled its finances.
In January 2011, Gilbertson caused Dakota Plains to
issue $3.5 million in promissory notes at 12% interest (the
“Senior Notes”). Gilbertson purchased a $1 million Senior
Note for himself and another $100,000 Senior Note for a
nonprofit corporation he controlled.
In April 2011, Gilbertson and Reger installed Gabe
Claypool as CEO of Dakota Plains. According to Claypool,
“All the financial decisions were driven by Ryan [Gilbertson].” Within two weeks after Claypool became CEO, Gilbertson and Reger directed him to issue an additional $5.5
million in promissory notes at 12% interest (the “Junior
Notes”). Gilbertson and Reger held the majority of the
Junior Notes directly or indirectly. The Junior Notes included a complex bonus payment provision 2 entitling the
1
The Honorable Patrick J. Schiltz, United States District Judge
for the District of Minnesota.

The bonus payment provision is referenced throughout the documents and at trial by many terms, including the “additional payment
2

3a
noteholders to an additional payment (the “bonus payment”) if the company went public through an initial public offering (“IPO”). The amount of the bonus payment
was tied to the initial offering price of Dakota Plains stock
at the time of the IPO; the higher the initial offering price,
the higher the bonus payment. Claypool testified he had
no “role in crafting” the bonus payment provision and “did
not understand it at the time.” Nevertheless, he approved
it at Gilbertson’s direction.
In October 2011, Gilbertson proposed consolidating
the Senior Notes and Junior Notes into consolidated
promissory notes (the “Consolidated Notes”). He also
proposed amending the bonus payment provision to: (1)
apply to the total value of the Consolidated Notes ($9 million), not just the amount lent under the Junior Notes
($5.5 million); (2) trigger not only by an IPO, but by any
public offering, including a reverse merger; and (3) be calculated not by the IPO price, but by the average price of
Dakota Plains stock during the first 20 days of public trading. Under the new provision, noteholders would be entitled to the bonus payment if Dakota Plains stock traded
above an average closing price of $2.50 per share during
the first 20 days of public trading. The higher the stock
traded above that price, the larger the bonus payment.
The Dakota Plains board, now comprised of additional
members, approved the note consolidation and amendments to the bonus payment provision.
Unbeknownst to Claypool and the board, Gilbertson
had already arranged to take Dakota Plains public
through a reverse merger. Nine months earlier (in January 2011), Gilbertson approached Thomas Howells—a
provision,” the “embedded derivative,” and a “synthetic conversion
feature.” All these terms refer to the same provision in the notes that
triggered the $32.8 million bonus payment to the noteholders.

4a
Utah-based business consultant specializing in reverse
mergers—about locating a public “shell” company for a
reverse merger. Howells identified a reverse-merger candidate in April 2011. The candidate—Malibu Club Tan
(“MCT”)—was a publicly traded company that had operated a now-defunct tanning salon in Salt Lake City.
Gilbertson wanted a shell company for the reverse
merger with a small “float”—the number of shares tradeable immediately after the reverse merger. MCT had a
relatively small float. Before the merger with Dakota
Plains, MCT had about 640,000 shares of outstanding
stock. Due to regulatory restrictions, all but 92,400 shares
were “restricted,” not freely tradeable until six months after a merger. Another 127,200 shares were tradeable, but
only with a legal opinion verifying certain requirements.
All outstanding shares of Dakota Plains stock were restricted and not tradeable until six months after a merger.
Thus, the only shares tradeable in the first six months after the reverse merger—and, critically for Gilbertson,
during the first 20 days of public trading—were 219,600
MCT shares (the “tradeable MCT shares”).
The same day Gilbertson proposed the note consolidation and reverse merger (in October 2011), he texted Howells that he was ready to move forward with the reverse
merger. During the negotiations with Howells, Gilbertson
insisted that 50,000 of the tradeable MCT shares be sold
to a buyer of Gilbertson’s choice before the merger. He
also insisted that Howells keep this transaction “strictly
confidential,” allegedly to “help with the market,” e.g.,
prevent current stockholders from selling after the merger and driving down the stock price.
In November 2011, MCT and Dakota Plains agreed to
the reverse merger. By December 2011, Howells had located MCT stockholders willing to sell a total of 50,000 of

5a
the tradeable MCT shares. MCT’s attorney requested
that Gilbertson sign a formal agreement prohibiting the
sale of any of the 50,000 shares within 90 days after the
merger to avoid “unduly influenc[ing] the market.” Gilbertson refused, instead offering an unwritten “gentleman’s agreement” that the shares would not be sold
within 90 days after the merger.
Rather than purchase the 50,000 shares in his name,
Gilbertson chose Doug Hoskins, a Minnesota real estate
agent who played on and managed Gilbertson’s polo team.
Hoskins had no experience trading stock and no
knowledge of Dakota Plains’ business. Additionally,
Hoskins owed tens of thousands of dollars in judgments
and tax liens. Gilbertson negotiated the details of the sale.
Hoskins never met nor communicated with Howells or the
MCT stockholders; all communications went through Gilbertson. Unbeknownst to Howells or the MCT stockholders, Gilbertson wired Hoskins $30,000 to purchase the
shares. That same day, Gilbertson texted Howells that the
“Wire for share purchases will go out tomorrow . . . as always please keep transactions strictly confidential.”
Gilbertson also arranged for Hoskins to open a trading
account at a brokerage firm specializing in penny stocks.
Opening the account, Hoskins falsely represented himself
“under penalty of perjury” as a sophisticated investor. He
also made false representations in the share-purchase
agreement (which Gilbertson edited), including that he
was: (1) an “accredited investor;” (2) purchasing stock for
himself only and not in concert with any other person or
entity; and (3) not insolvent.
The reverse merger closed on March 22, 2012. That
same day, Hoskins used Gilbertson’s money to purchase

6a
50,000 of the tradeable MCT shares for $0.50 per share. 3
Nothing in the merger documents referenced the stipulation allowing Gilbertson to purchase 50,000 of the tradeable MCT shares.
The first day of public trading on a “over-the-counter”
market was March 23. In the first 30 minutes of trading,
Gilbertson and Hoskins spoke by phone twice. Between
these calls, Hoskins called his broker. That morning,
Hoskins began selling his newly acquired shares for
around $12 per share.
At the same time Gilbertson was directing Hoskins on
selling, he also was directing Nicholas Shermeta, a stock
broker at a Minneapolis securities brokerage firm, to buy
Dakota Plains stock for $12 per share. Gilbertson and
Shermeta had a longstanding financial and personal relationship. In Dakota Plains’ early years, Shermeta found
investors for the company in return for cash and stock.
Shermeta, with the help of an attorney from Dakota
Plains, hid his financial relationship with the company
from his brokerage firm and customers, in violation of federal securities regulations.
Shermeta testified that “right before or after the stock
was publicly trading” Gilbertson instructed him to find
buyers of Dakota Plains stock for $12 per share. Gilbertson provided no rationale for the $12 purchase price; when
Shermeta asked, Gilbertson responded only that “$12 is
the number.” Gilbertson also told Shermeta that he had
other buyers who would buy the stock for $12 or higher.
On the first day of public trading, at Gilbertson’s direction, Shermeta purchased 10,000 shares of Dakota
Of the 50,000 tradeable MCT shares Hoskins purchased, 14,000
were completely unrestricted and 36,000 were tradeable with a legal
opinion.
3

7a
Plains stock. The second day, again at Gilbertson’s direction, Shermeta purchased another 50,000 shares for $12
per share.
For the next 18 days, at Gilbertson’s direction,
Hoskins sold his stock for around $12 per share. During
this time, he was the largest single seller of Dakota Plains
stock, representing 32% of the total sales. Also during this
time, and at Gilbertson’s direction, Shermeta purchased
the stock, both personally and on behalf of his brokerage
clients (without their permission or knowledge) for
around $12 per share. According to Shermeta’s trial testimony, many of these purchases did not make financial
sense for his clients, 4 but Shermeta made them anyway
“at the direction of Mr. Gilbertson to establish a share
price of $12 a share.” During this time, Shermeta was the
largest single buyer of Dakota Plains stock, representing
almost 54% of the total purchases.
On April 4, Hoskins emailed his broker asking why he
had only “25pct of the volume” of transactions in Dakota
Plains stock. At about the same time, Gilbertson texted
Howells a similar message: “Hoskins should be getting
more than 25pct of the volume.” Hoskins and Gilbertson
were both in Sarasota, Florida when they sent their messages.
At trial, Howells testified that when he received Gilbertson’s April 4th text message, he was “concerned,” in
For example, Shermeta purchased 1,000 shares of Dakota Plains
stock for $12 per share on behalf of his client Kim Culp, without
Culp’s knowledge. Culp already owned over 200,000 shares of Dakota
Plains stock acquired for less than $0.50 per share. Also, at Gilbertson’s direction “[t]o continue to stabilize or have the shares trade at
$12 a share,” Shermeta purchased 1,000 shares of Dakota Plains stock
for himself, despite already owning over 100,000 shares he received
for free.
4

8a
a “little bit of panic” because he knew it was “market interference.” Gilbertson confirmed this, texting a bit later,
“They would be participating on sales at 7 bucks not 12
were it not for my involvement.” Howells understood this
text message to mean “[t]hat through just sheer cavalier
arrogance and activity that [Gilbertson] was manipulating
the buy side and was asking me to manipulate the sell
side.” Despite Gilbertson’s manipulation, Howells called
Hoskins’ broker and relayed Gilbertson’s complaint. At
trial, Howells testified he manipulated the sell side because he “had a large personal investment, pretty much
most of my liquid net worth,” in Dakota Plains, and he
“chose to protect that.” He also testified he was unaware
that a bonus payment was tied to the price of the stock,
and thus “failed to see any bigger picture on why this was
going on, other than to potentially get a few extra dollars
on a couple of trades for a friend and associate of his.”
The average price of stock during the first 20 days of
trading was $11.63, triggering almost $33 million in bonus
payments to noteholders (about $11 million to Gilbertson
alone). After the first 20 days of trading, Gilbertson
stopped directing Shermeta to buy the stock, and the
price “went down significantly.” Hoskins continued trying
to sell it. But by May, he had no buyers at $10 a share, and
trading “basically stop[ped].”
Around May 15, 2012, Howells learned about the bonus payment through the Dakota Plains quarterly SEC
report. He testified he was livid and scared because he
“did the wrong thing, and it had cascading consequences
beyond my imagination.” He immediately emailed Gilbertson: “What institution will touch [Dakota Plains] with
this derivative nonsense. The whole valuation of the company just went to shit; call me as I am walking into a hor-

9a
nets nest in the morning.” Howells testified he held Gilbertson “responsible for the inclusion of the derivative
piece” and his involvement in it. A few months later, Howells again confronted Gilbertson, explaining that “the nature of some of the communication and text messages and
everything else . . . showed that [Howells] had an active
role in things that happened in the market that [led] way
to a derivative that [he] had no idea existed.” Gilbertson
responded by giving Howells 50,000 shares of Dakota
Plains stock which he “legitimized” through fake consulting agreements.
Like Howells, Shermeta was not aware of the bonus
payment. He first learned about it when an “irate” customer called him after reading the Dakota Plains quarterly SEC report. Shermeta testified he “had never seen
anything like it and have never seen anything like it
since.” He felt angry and “used because clearly I was
party to purchasing a stock at $12 so that this would, in
effect, trigger this escalator clause in the notes.” As Shermeta explained at trial, “you can see that the stock traded
at $12 as a result of—at least partially a result of my
trades.”
In June 2012, Hoskins returned most of the unsold
shares to Gilbertson through a sham polo contract. In it,
Hoskins agreed to serve as a player and manager for Gilbertson’s polo team and to transfer 25,000 shares of Dakota Plains stock “as compensation to the team for services provided.” Hoskins sold his remaining shares
throughout the rest of 2012 and into early 2013. Unlike his
trading behavior during the first 20 days, however,
Hoskins slowly and continually dropped his sales price to
reflect market demand. He eventually sold shares for
$4.50 a share.

10a
Dakota Plains could not afford the bonus payments
triggered by the reverse merger. The board tried to renegotiate or reduce the payments. Gilbertson refused. At
Gilbertson’s suggestion, the company tried to raise money
for the payments. These efforts were unsuccessful. Dakota Plains ultimately declared bankruptcy.
In March 2018, Gilbertson was charged in a 22-count
indictment with 15 counts of wire fraud, one count of conspiracy to commit securities fraud, and six counts of securities fraud. Hoskins, a co-defendant, was charged with
nine counts of wire fraud, one count of conspiracy to commit securities fraud, and six counts of securities fraud.
The jury convicted Gilbertson of all but one count. The
jury convicted Hoskins of two counts of wire fraud, one
count of conspiracy to commit securities fraud, and three
counts of securities fraud. Gilbertson moved for judgment
of acquittal or a new trial, arguing the evidence was insufficient. The district court denied the motion, finding “ample evidence to support the jury’s verdict.” United States
v. Gilbertson, 2018 WL 5920625, at *3 (D. Minn. Nov. 13,
2018).
II.
Gilbertson believes his “convictions should be reversed because his conduct was not manipulative as a matter of law.” He argues that the “government has no legally
valid theory of market manipulation” because all his actions were “legitimate trades executed at the prevailing
market price, which injected no inaccurate information
into the marketplace.” This court reviews the sufficiency
of the evidence de novo, viewing the evidence most favorably to the verdict. See United States v. Jenkins, 758 F.3d
1046, 1049 (8th Cir. 2014). This court will affirm unless
“there is no interpretation of the evidence that would allow a reasonable jury to find the defendant guilty beyond

11a
a reasonable doubt.” United States v. Cacioppo, 460 F.3d
1012, 1021 (8th Cir. 2006).
Gilbertson was convicted under securities and wire
fraud statutes that criminalize fraudulent or manipulative
schemes. See 15 U.S.C. § 78j(b) (prohibiting “any manipulative or deceptive device or contrivance” “in connection
with the purchase or sale of any security registered on a
national securities exchange”); 18 U.S.C. § 371 (criminalizing a conspiracy to “defraud the United States, or any
agency thereof”); 18 U.S.C. § 1343 (prohibiting “any
scheme or artifice to defraud” by “false or fraudulent pretenses, representations, or promises”).
Courts have interpreted these statutes broadly. For
example, this court has held that the crime of wire fraud
is “broad in scope.” United States v. Bishop, 825 F.2d
1278, 1280 (8th Cir. 1987). “The fraudulent aspect of the
scheme to ‘defraud’ is measured by a nontechnical standard.” Id. In fact, a scheme to defraud does not require
false representations. Rather, it is “a departure from fundamental honesty, moral uprightness, or fair play and
candid dealings in the general life of the community.”
United States v. Britton, 9 F.3d 708, 709 (8th Cir. 1993).
“[M]any courts have construed the term ‘scheme or artifice to defraud’ to include . . . widely diverse schemes,”
United States v. States, 488 F.2d 761, 764 (8th Cir. 1973),
including stock manipulation. See, e.g., United States v.
Clark, 717 F.3d 790, 807 (10th Cir. 2013) (upholding wire
fraud conviction against defendant who “engaged in coordinated selling to inflate the sales price of stock”); United
States v. Haddy, 134 F.3d 542, 544-45 (3d Cir. 1998) (upholding wire fraud conviction based on stock manipulation
scheme); United States v. Russo, 74 F.3d 1383, 1394 (2d
Cir. 1996) (upholding mail fraud conviction against defendants who were “motivated by an intent to subvert the

12a
operation of normal market forces on the price of the
stock rather than by legitimate investment concerns”).
In the context of securities fraud, the Supreme Court
held that the word “manipulative” is “virtually a term of
art when used in connection with securities markets. It
connotes intentional or willful conduct designed to deceive
or defraud investors by controlling or artificially affecting
the price of securities.” Ernst & Ernst v. Hochfelder, 425
U.S. 185, 199 (1976). “The Supreme Court has long construed [15 U.S.C. § 78j(b)] ‘not technically and restrictively, but flexibly to effectuate its remedial purposes.’ ”
Lewis v. Scottrade, Inc., 879 F.3d 850, 853 (8th Cir. 2018),
quoting SEC v. Zandford, 535 U.S. 813, 819 (2002). “The
gravamen of manipulation is deception of investors into
believing that prices at which they purchase and sell securities are determined by the natural interplay of supply
and demand, not rigged by manipulators.” Gurary v.
Winehouse, 190 F.3d 37, 45 (2d Cir. 1999).
At trial, the jury heard and believed ample evidence
that Gilbertson created a scheme to defraud through
stock manipulation. Gilbertson laid the foundation for this
scheme months in advance. He first convinced the Dakota
Plains board to issue promissory notes with a bonus payment provision, drafted by him and inserted into the notes
at his direction. This payment provision entitled him to a
multimillion dollar bonus payment if the stock traded
above $2.50 per share during the first 20 days of trading.
As the government’s securities expert testified, this provision created “a tremendous incentive to manipulate” the
stock price.
Next, Gilbertson arranged and coordinated the reverse merger. He selected the shell company based on the
number of freely tradeable shares. He then amassed control over a majority of them. He concealed his motive for

13a
acquiring these shares, telling Howells he wanted them to
“help with the market” and prevent existing shareholders
from selling and driving down the price. Through
Hoskins, he also concealed his payment for and control
over the shares. This was an essential part of his scheme,
allowing him to drive up the stock price without revealing
his role in the manipulative trading. He lied again when
he entered into an unwritten “gentleman’s agreement”
not to trade shares within 90 days after the reverse merger. As the district court said, all of this created a “golden
opportunity” for Gilbertson to control the market and manipulate the stock price. Gilbertson, 2018 WL 5920625, at
*1.
Finally, Gilbertson used his control over the shares to
execute his fraudulent scheme. Although Hoskins purchased the stock for $0.50 per share the day before public
trading began, Gilbertson directed him to sell it for $12
during the 20 days that followed. At the same time, he directed Shermeta, to “have investors lined up to purchase
shares of the stock” for $12 per share. These purchases
did not reflect the underlying value of Dakota Plains
stock; rather, Shermeta made them “at the direction of
Mr. Gilbertson to establish a share price of $12 a share.”
Gilbertson asserts his acts were not fraudulent because his trades “communicated no inaccurate information to the market.” According to him, he did not manipulate the price of Dakota Plains stock; it was set by
natural market forces. Relying on GFL Advantage Fund,
Ltd. v. Colkitt, 272 F.3d 189 (3d Cir. 2001) and ATSI Communications, Inc. v. Shaar Fund, Ltd., 493 F.3d 87 (2d
Cir. 2007), he argues his acts were not manipulative because he engaged in legitimate open-market trading.
In GFL Advantage Fund, the plaintiff alleged a company engaged in short selling to drive down stock prices

14a
for unlawful gains. The district court granted summary
judgment to the company, concluding that “evidence of
GFL’s short sales alone was insufficient” to establish market manipulation because there was nothing “to suggest
that the short sales were part of a scheme to manipulate
the market.” GFL Advantage Fund, 272 F.3d at 198. The
Third Circuit agreed, noting that “courts must distinguish
between legitimate trading strategies intended to anticipate and respond to prevailing market forces and those
designed to manipulate prices and deceive purchasers and
sellers.” Id. at 205. Because the alleged manipulation consisted of short selling without any allegations of deceptive
activity, the company’s acts were legal. Id. at 207-09 (noting that “the market considered the stocks to be overvalued and that GFL simply was responding to market
forces, rather than distorting them, by engaging in short
sales”).
Similarly, in ATSI Communications, a corporation
filed a securities fraud action alleging that investors defrauded it into selling convertible preferred securities to
entities they controlled. ATSI Commc’ns, 493 F.3d at 9396. The district court dismissed the action. Id. at 98. The
Second Circuit affirmed, concluding that “[t]o be actionable as a manipulative act, short selling must be willfully
combined with something more to create a false impression of how market participants value a security.” Id. at
101. Because ATSI pled “no particular connection between the negative reaction of the stock price and anything the defendants did,” the district court properly dismissed the complaint. Id. at 103-04.
Unlike these cases, Gilbertson was not engaged in “legitimate trading strategies intended to anticipate and respond to prevailing market forces.” GFL Advantage
Fund, 272 F.3d at 205. Rather, he took multiple acts to

15a
manipulate prices and distort market forces on both the
buy and sell side. Initially, he asked Howells to keep his
purchase of 50,000 of the tradeable MCT shares “strictly
confidential.” Then, instead of buying Dakota Plains stock
in his name, he lied about his payment for and control over
the shares, using Hoskins as his nominee. To facilitate the
sale, he directed Hoskins to lie on his brokerage-account
application and share-purchase agreements. He then entered into a fraudulent “gentleman’s agreement” not to
trade the shares.
When trading began, Gilbertson told Hoskins—the
largest single seller of Dakota Plains stock during the initial 20-day period—to sell the shares at a certain price.
And notably, rather than buy shares himself in the open
market, he instructed Shermeta—the largest single purchaser of Dakota Plains stock during the initial 20-day period—to purchase stocks for $12 per share. These acts and
omissions, taken together, do not constitute legitimate
trading that responds to market forces. Rather, they show
manipulation of prices and markets. See Santa Fe Indus.,
Inc. v. Green, 430 U.S. 462, 477 (1977) (“nondisclosure is
usually essential to the success of a manipulative scheme”
in the context of securities fraud).
Two witnesses (Howells and Shermeta) provided evidence of this manipulation on both the buy and sell side,
testifying that “at Gilbertson’s direction, they worked in
concert with Gilbertson (Howells on the sell side, Shermeta on the buy side) to inflate the price of Dakota Plains
stock.” Gilbertson, 2018 WL 5920625, at *3. As the district
court properly found, this “evidence alone gave the jury a
sufficient basis to find that Gilbertson schemed to inflate
the stock price, engaged in deceptive conduct and active
concealment, and acted with intent to defraud.” Id.

16a
Gilbertson disagrees, asserting that “the stock was already trading at $12 when Shermeta and Hoskins executed trades at that price.” But this ignores that the majority of sales and purchases during the 20-day period
were executed at prices dictated by Gilbertson. In fact,
Gilbertson acknowledges he was responsible for the $12
per share price, texting Howells on April 4th that the
stock would be selling at $7 per share rather than $12
“were it not for my involvement.” Thus, even if this court
assumes he did not manipulate the market to set the $12
price, he certainly manipulated the market—secretly directing stock sales and purchases—to maintain it. See
ATSI Commc’ns, 493 F.3d at 100 (holding that deception
occurs when “investors are misled to believe that prices at
which they purchase and sell securities are determined by
the natural interplay of supply and demand, not rigged by
manipulators” (internal quotation mark omitted)); GFL
Advantage Fund, 272 F.3d at 207 (holding that to prove
fraud, the defendant must be “engaged in deceptive or
manipulative conduct by injecting inaccurate information
into the marketplace or creating a false impression of supply and demand for the security”); United States v. Regan, 937 F.2d 823, 829 (2d Cir. 1991) (holding that a plan
to lower stock prices by secretly selling 40,000 shares to a
broker dealer without disclosing to the dealer the identity
of the seller or the moving party behind the deal “fits comfortably” within the range of “wrongful acts” Congress
meant to prohibit in regulating securities).
The evidence was sufficient for a reasonable jury to
find that Gilbertson’s conduct was fraudulent and manipulative within the meaning of the statutes in question.
III.
Gilbertson argues the government failed to establish
“nondisclosure of a material fact,” or “active concealment

17a
of a material fact.” Again, this court reviews the sufficiency of the evidence de novo. See Jenkins, 758 F.3d at
1049.
The district court instructed the jury that for purposes
of wire fraud, a “scheme to defraud” requires evidence
that Gilbertson was “employing material falsehoods, concealing material facts, or omitting material facts.” Similarly, the court instructed the jury that for purposes of securities fraud, “a manipulative or deceptive device” requires evidence of “a deliberate affirmative misstatement
of a material fact” or “deliberate omission of a material
fact.” Gilbertson believes the “government failed to identify any actionable omission or act of concealment, much
less a material one.”
From the beginning of his scheme, Gilbertson omitted,
concealed, and lied about multiple facts. Initially, he lied
about his payment for and control of the shares. He entered into a fraudulent “gentleman’s agreement” not to
trade them. He directed Hoskins to lie on his brokerageaccount application and share-purchase agreements. He
told Howells to keep the transaction “strictly confidential.” And he instructed Shermeta to purchase stock for
$12 per share rather than purchasing it himself.
Gilbertson argues these representations are immaterial. But, as the district court instructed the jury, a representation is material “if it has a natural tendency to influence or is capable of influencing the decision of a reasonable person in deciding whether or not to engage in a particular transaction.” See Neder v. United States, 527 U.S.
1, 16 (1999) (“In general, a false statement is material if it
has a natural tendency to influence, or [is] capable of influencing, the decision of the decisionmaking body to
which it was addressed.” (internal quotation marks omitted)); Basic Inc. v. Levinson, 485 U.S. 224, 231-32 (1988)

18a
(holding that materiality requires “a substantial likelihood that the disclosure of the omitted fact would have
been viewed by the reasonable investor as having significantly altered the ‘total mix’ of information made available”).
At the very least, Gilbertson’s active concealment of
his purchase and control of 50,000 tradeable MCT
shares—by directing Howells to keep the transaction
“strictly confidential” and purchasing the shares in
Hoskins’ name—was material. See Santa Fe Indus., 430
U.S. at 477 (“nondisclosure is usually essential to the success of a manipulative scheme” in the context of securities
fraud); United States v. Steffen, 687 F.3d 1104, 1114 (8th
Cir. 2012) (defining active concealment as “deceptive acts
or contrivances intended to hide information, mislead,
avoid suspicion, or prevent further inquiry into a material
matter”). In fact, it was at the core of his scheme. Gilbertson was able to use the tradeable MCT shares to manipulate the stock price only because he did not buy or sell
them in his name. As the district court correctly found,
“the jury could easily find that a reasonable investor
would have found material the fact that a corporate insider had, through a nominee, purchased more than half
of the freely tradeable stock and was directing that nominee and others to trade the stock at pre-arranged prices
for the purpose of triggering tens of millions of dollars in
bonus payments that would likely cripple the corporation.”
The evidence was sufficient to show nondisclosure or
active concealment of a material fact.

19a
IV.
Gilbertson maintains the district court abused its discretion in admitting lay opinion testimony on manipulation from a government witness. “A district court’s decision to admit or exclude lay opinion testimony is reviewed
for abuse of discretion.” United States v. Oslund, 453 F.3d
1048, 1059 (8th Cir. 2006). “A district court has wide discretion in ruling on the admissibility of proffered evidence.” Harris v. Secretary, U.S. Dep’t of the Army, 119
F.3d 1313, 1321 (8th Cir. 1997). Evidentiary rulings are
overturned only if there is “a clear and prejudicial abuse
of discretion.” Haynes v. American Motors Corp., 691
F.2d 1268, 1272 (8th Cir. 1982). If a defendant did not object to the testimony at trial, this court reviews for plain
error. See United States v. Pirani, 406 F.3d 543, 549 (8th
Cir. 2005) (en banc). Under plain error review, this court
reverses only if there was an error, that was plain, that
affected the defendant’s substantial rights, and that “seriously affects the fairness, integrity, or public reputation
of judicial proceedings.” Id. at 550, quoting United States
v. Olano, 507 U.S. 725, 732 (1993).
Gilbertson objects to three opinions Howells gave during trial about text messages the two exchanged on April
4th. Gilbertson objected to only one of these opinions at
trial. First, asked about his reaction to Gilbertson’s text
message complaining that “Hoskins should be getting
more than 25pct of the volume,” Howells testified he was
“concerned” because Gilbertson was engaging in “market
interference” in a manner inconsistent with the “gentleman’s agreement” not to trade in the 90 days after the reverse merger. Gilbertson objected. Second, Howells testified to relaying Gilbertson’s message about the 25% volume to Hoskins’ broker, admitting that he was “manipulating the sell side.” Gilbertson did not object. Third,

20a
Howells explained his interpretation of Gilbertson’s texts
to mean that Gilbertson “was manipulating the buy side”
and asking Howells to “manipulate the sell side.” Gilbertson did not object.
A lay witness may offer opinion testimony that is “rationally based on the witness’s perception.” Fed. R. Evid.
701(a). “Personal knowledge or perceptions based on experience is sufficient foundation for lay testimony.”
United States v. Smith, 591 F.3d 974, 982 (8th Cir. 2010)
(internal quotation marks omitted). Lay witnesses may offer their interpretations of their conversations. See, e.g.,
United States v. Lomas, 826 F.3d 1097, 1106-08 (8th Cir.
2016) (holding that a lay witness may offer an opinion
about the meaning of a conversation if the witness participates in it); United States v. Fregoso, 60 F.3d 1314, 1326
(8th Cir. 1995) (“Where a witness is in a position to know
what the other party meant, a district court does not
abuse its discretion in admitting testimony as to her understanding of the meaning of the words used by the other
party.” (cleaned up)).
Relying on United States v. Scop, 846 F.2d 135 (2d Cir.
1988), Gilbertson argues the district court allowed Howells to state “improper legal conclusions” that Gilbertson
engaged in “market interference.” This argument is without merit. In Scop, a government expert (SEC investigator) testified without personal knowledge to his conclusion
that there was a scheme to defraud. Scop, 846 F.2d at 138.
Basing his opinion solely on trial evidence, the investigator opined that “certain individuals were active and material participants” in a stock manipulation scheme. Id.
Here, however, Howells was not an expert witness
opining on the legal significance of Gilbertson’s acts. Rather, he was a lay witness testifying from personal expe-

21a
rience about his interpretation of text message conversations with Gilbertson. In the first opinion, Howells
properly explained his reaction to a text from Gilbertson,
noting that he was “concerned” because he believed the
text showed that Gilbertson was attempting to interfere
with the market. See Lomas, 826 F.3d at 1106-07 (“A lay
witness is permitted to express an opinion that is rationally based on his perception, and helpful to determining a
fact in issue.” (cleaned up)). In the second and third opinions, Howells testified about his own participation in criminal conduct, telling the jury what he did—manipulate the
sell side—to help Gilbertson. This was not an opinion on
the legal significance of Gilbertson’s acts. Rather, it was
Howells’s account of his own bad acts. To the extent Howell’s testimony incriminated Gilbertson—indicating that
Gilbertson manipulated the buy side—it still was not improper or unfairly prejudicial. United States v. Thompson, 708 F.2d 1294, 1298 (8th Cir. 1983) (holding that a
witness’s conclusion that the defendant was involved in
the charged conspiracy was admissible under Rule 701);
United States v. McClintic, 570 F.2d 685, 690 (8th Cir.
1978) (holding no abuse of discretion in allowing co-conspirator to offer his opinion that defendant was aware that
goods were obtained by fraud). Rather, Howells was again
properly opining about his understanding of Gilbertson’s
text messages. See United States v. Scott, 243 F.3d 1103,
1107 (8th Cir.2001) (“A district court does not abuse its
discretion in admitting testimony by a witness with
firsthand knowledge as to his understanding of words
used by the defendant or other conspirators.”).
The district court did not abuse its discretion or
plainly err in admitting Howells’s testimony.

22a
V.
Gilbertson contends the district court erred in imposing restitution “based on non-criminal conduct.” He also
believes the court violated his constitutional rights in determining his restitution and sentence. Sentencing courts
have “wide discretion” in awarding restitution. United
States v. Carpenter, 841 F.3d 1057, 1060 (8th Cir. 2016).
“The government has the burden of proving the amount
of restitution by a preponderance of the evidence.” United
States v. Farrington, 499 F.3d 854, 860 (8th Cir. 2007).
This court reviews the decision to award restitution for an
abuse of discretion, and the factual determinations underlying it for clear error. Id.
In fraud cases, “victim restitution may be ordered for
criminal conduct that is part of a broad scheme to defraud,
without regard to whether the defendant is convicted for
each fraudulent act in the scheme.” Id. at 861. This court
looks “to the scope of the indictment in order to determine
whether it details a broad scheme encompassing transactions beyond those alleged in the counts of conviction.”
United States v. Manzer, 69 F.3d 222, 230 (8th Cir. 1995)
(internal quotation marks omitted).
The district court ordered Gilbertson to pay
$15,135,361—the undisputed full amount that he and the
other noteholders obtained from Dakota Plains due to Gilbertson’s scheme. Gilbertson argues the district court
erred in ordering this because there was no “connection
between those losses and the alleged criminal conduct.”
Specifically, he contends that losses incurred from noncriminal conduct (the inclusion of the bonus payment provision in the Consolidated Notes) cannot be included in
the restitution calculation. The district court disagreed,
finding that “every penny” of the bonus payment was the

23a
result of Gilbertson’s fraudulent scheme “because the reverse-merger bonus provision itself was part of that
scheme.” It said:
At the time that Mr. Gilbertson set out upon his criminal scheme, only the junior notes contained a bonus
provision, and that bonus provision applied only in the
case of an initial public offering. As part of his scheme,
Mr. Gilbertson went behind the company’s back to
make preliminary arrangements for a reverse merger,
and then he induced the company to alter the bonus
provision so that [it] would apply to both the senior
and junior notes, and so that it would apply in the
event of a reverse merger. It is clear from the evidence
at trial that these steps were taken with criminal intent and in furtherance of the fraudulent scheme. In
other words, but for Mr. Gilbertson’s fraudulent
scheme, he would not have been entitled to any bonus,
because none of the notes would have entitled the
noteholder to a bonus in the event of a reverse merger.
The district court did not clearly err in finding that the
insertion of the bonus payment provision in the Consolidated Notes was part of Gilbertson’s fraud scheme. The
indictment alleged, and the trial evidence showed, that
Gilbertson’s acts before the reverse merger—including
his insertion of the bonus payment provision in the Consolidated Notes—albeit legal, were part of his fraud
scheme. That Gilbertson later illegally manipulated the
stock after the reverse merger does not render earlier
acts outside the scope of the scheme. As the district court
rightly found, Gilbertson inserted the bonus payment provision as part of his scheme to defraud Dakota Plains.
Without it, he would have received no bonus at all, regardless of the stock price. See, e.g., Farrington, 499 F.3d at
860-61; Manzer, 69 F.3d at 230.

24a
Finally, Gilbertson argues that the district court erred
in relying on facts not found by a jury beyond a reasonable
doubt in increasing his sentence and ordering restitution.
As Gilbertson notes, this court has rejected this argument. See, e.g., United States v. Thunderhawk, 799 F.3d
1203, 1209 (8th Cir. 2015) (rejecting the argument that
restitution is a “criminal punishment beyond the statutory
maximum and therefore must be proved to a jury”).
The district court did not abuse its discretion in ordering restitution in the amount of $15,135,361.
*******
The judgment is affirmed.
KELLY, Circuit Judge, concurring.
I agree that sufficient evidence supported Gilbertson’s
convictions, and that the district court did not abuse its
discretion by ordering restitution. I write separately,
however, because in my view, the lay testimony about
market “manipulation” and “interference” was improperly admitted.
Gilbertson argues that it was error to admit certain
testimony from Thomas Howells, a lay witness for the
government. Gilbertson takes issue with three discrete
portions of Howells’s testimony where he told the jury
that he and Gilbertson were engaged in “market interference” by “manipulating” the market for Dakota Plains
stock. Gilbertson argues this testimony amounted to improper legal conclusions that were unhelpful to the jury.
See Fed. R. Evid. 701(b).
Gilbertson objected the first time Howells testified
about “market interference.” The district court overruled

25a
that objection, and Howells immediately went on to discuss “market manipulation.” Although Gilbertson did not
again object, he re-asserted his objection to all of Howells’s “interference and manipulation” testimony during a
bench conference. Gilbertson moved to strike Howells’s
disputed testimony as impermissible legal opinions and
requested a curative instruction to the jury. The district
court denied Gilbertson’s motion because it “didn’t remember [Howells] giving legal opinions.” Because Gilbertson made a contemporaneous objection to Howells’s
“market interference” testimony and moved for a curative
instruction, the district court “clearly had an opportunity
to correct any error it may have made.” See United States
v. Moeckly, 769 F.2d 453, 460 (8th Cir. 1985). Under these
circumstances, the issue is preserved for appellate review.
See id.
Gilbertson does not challenge Howells’s testimony under Rule 701(a)—he acknowledges that Howells testified
based on his “perception” of their conversations. See Fed.
R. Evid. 701(a) (lay witness opinion must be “rationally
based on the witness’s perception”). Nor does Gilbertson
challenge Howells’s testimony as being inculpatory or
linking Gilbertson to the crimes. Instead, Gilbertson challenges Howells’s testimony under Rule 701(b), as not
helpful to the trier of fact. See Fed. R. Evid. 701(b) (lay
witness opinion must be “helpful to clearly understanding
the witness’s testimony or to determining a fact in issue”).
I agree with Gilbertson that the disputed portions of
Howells’s testimony amounted to improper legal conclusions and thus were not sufficiently helpful to the jury to
be admissible. See Kostelecky v. NL Acme Tool/NL Indus., Inc., 837 F.2d 828, 830 (8th Cir. 1988) (explaining
that “evidence that merely tells the jury what result to
reach is not sufficiently helpful to the trier of fact to be

26a
admissible”). Howells impermissibly used legal terms
matching the elements of the charged offenses to explain
the significance of his and Gilbertson’s conduct. The disputed testimony was “phrased in terms of inadequately
explored legal criteria” and “merely t[old] the jury what
result to reach.” See Fed. R. Evid. 704 advisory comm.
note; Kostelecky, 837 F.2d at 830.
Howells could, of course, testify about his and Gilbertson’s involvement in the criminal conduct. See United
States v. Thompson, 708 F.2d 1294, 1298 (8th Cir. 1983)
(permitting an alleged co-conspirator to testify that the
defendant was “involved” in the charged conspiracy; that
this testimony “went directly to the ultimate issue in the
case . . . did not make [it] improper”); see also Fed. R.
Evid. 704 (so long as it is otherwise admissible, an “opinion is not objectionable just because it embraces an ultimate issue”). Similarly, Howells could testify about his
own “observations and perceptions” about Gilbertson and
describe for the jury the activities he, Gilbertson, and the
others engaged in, and their purpose for doing so. See,
e.g., United States v. Lomas, 826 F.3d 1097, 1107 (8th Cir.
2016) (affirming the admission of lay witness testimony
that the defendant used the word “tool” in a text message
to mean “gun” because the witness testified based on her
“direct observations and perceptions”); Fed. R. Evid.
701(a).
What Howells could not do is cloak impermissible legal
conclusions in lay opinion testimony. Here, Howells used
the term market “manipulation,” which has “a separate,
distinct, and special legal meaning.” See Hogan v. Am.
Tel. & Tel. Co., 812 F.2d 409, 411 (8th Cir. 1987). As we
explained in Hogan, “[o]pinion testimony is not helpful to
the factfinder if it is couched as a legal conclusion.” Id.
(citing Owen v. Kerr-McGee Corp., 698 F.2d 236, 240 (5th

27a
Cir. 1983) (holding that a question that calls for a legal
conclusion supplies the jury with no information other
than what the witness believes the verdict should be)). In
Hogan, we decided the district court erred by allowing lay
witnesses to tell the jury that they had observed the defendant engage in “discriminatory acts.” Id. Because the
term “discriminate” has specialized legal meaning, it was
improper for the lay witnesses to use that term. Id. at 412;
see also United States v. Ness, 665 F.2d 248, 249–50 (8th
Cir. 1981) (affirming the exclusion of lay witness testimony that the defendant had “intent to injure or defraud
the bank” because this was “an essential element of the
crime” and “the jury could easily accord too much weight
to the pronouncement of a lay witness unfamiliar with the
standards erected by the criminal law”).
Likewise, here, Howells opined that he and Gilbertson
had engaged in market “manipulation.” That legal term of
art matches the elements of the charged offenses and has
a specialized meaning. See Santa Fe Indus., Inc. v. Green,
430 U.S. 462, 476 (1977) (explaining that “manipulation” is
“virtually a term of art when used in connection with securities markets”). The task of separating factual responses from impermissible legal conclusions “is not
easy,” but courts must exclude opinion testimony “if the
terms used have a separate, distinct, and special legal
meaning.” Hogan, 812 F.2d at 411-12. In my view, it was
improper for Howells, a lay witness, to use the disputed
words at trial. See id.; Ness, 665 F.2d at 250. 5
This is consistent with how other courts apply Rule 701(b). See,
e.g., United States v. Scop, 846 F.2d 135, 140 (2d Cir. 1988) (rejecting
testimony that the defendants’ conduct constituted market “manipulation,” a “scheme to defraud,” and “fraud” because those opinions
“invade the province of the court to determine the applicable law” and
“could not have been helpful to the jury in carrying out its legitimate
5

28a
Despite an evidentiary error, we will not reverse if the
error was harmless. United States v. Ramos, 852 F.3d
747, 757 (8th Cir. 2017). “An evidentiary error is harmless
when, after reviewing the entire record, we determine
that the substantial rights of the defendant were unaffected, and that the error did not influence or had only a
slight influence on the verdict.” Id. (cleaned up). Howells’s
use of “interference” and “manipulation” aside, the jury
heard that Gilbertson coordinated the sale of Doug
Hoskins’s shares at $12 per share while also directing
Nicholas Shermeta to buy at $12, in an effort to inflate the
price of Dakota Plains stock. As the court explains in Part
II of the opinion, this is evidence of market manipulation.
In addition, the government presented evidence that
Gilbertson employed “material falsehoods” and “deliberate affirmative misstatements of material fact” in furtherance of his scheme, which supported the jury’s verdicts on
the wire-fraud and securities-fraud counts, respectively.
For example, a reasonable jury could view Gilbertson’s
“gentleman’s agreement” to not trade Hoskins’s shares
during the first 90 days as an “affirmative misstatement
of material fact” made “[i]n connection with the purchase
or sale of securities” and “designed to artificially inflate
and manipulate the price of shares.” See Final Jury Instructions, DCD 214; see also 15 U.S.C. § 78j(b). Not only
was Gilbertson’s statement false, it was material. Had
MCT’s lawyer, Leonard Burningham, known Hoskins
would sell his shares during the first 90 days, Burningham
likely would not have agreed to sell the shares to Hoskins,
given his concern about undue market influence.
functions”); Torres v. Cty. of Oakland, 758 F.2d 147, 150 (6th Cir.1985)
(“The problem with testimony containing a legal conclusion is in conveying the witness’ unexpressed, and perhaps erroneous, legal standards to the jury.”).

29a
The government introduced additional evidence on the
materiality of Gilbertson’s lies. The jury heard that Dakota Plains investors were “incredibly angry” and “livid”
upon learning about Gilbertson’s scheme and Dakota
Plains’s subsequent $32.8 million liability. Multiple investors expressed their grave concerns about the effect that
Gilbertson’s scheme had on the company’s financial stability. All of this evidence was independent of Howells’s
use of the terms market “interference” and “manipulation.” As a result, this is not a case where the erroneous
evidentiary ruling affected Gilbertson’s substantial rights
or had more than a “slight influence on the verdict.” See
Ramos, 852 F.3d at 757. I therefore agree that the district
court’s judgment should be affirmed.

30a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

No. 17-CR-66(1) (PJS/HB)

UNITED STATES OF AMERICA,
Plaintiff,
v.
RYAN RANDALL GILBERTSON,
Defendant.

Filed: December 11, 2018

PARTIAL TRANSCRIPT OF PROCEEDINGS
Before The Honorable Patrick J. Schiltz
United States District Court Judge
(Sentencing)
APPEARANCES
For the Plaintiff:

U.S. ATTORNEY’S OFFICE
JOSEPH THOMPSON, AUSA
KIMBERLY SVENDSEN, AUSA
300 S. 4th St., #600
Minneapolis, Minnesota 55415

31a
For Defendant:

MAUZY LAW P.A.
WILLIAM MAUZY, ESQ.
KAITLIN EK, ESQ.
800 Hennepin Ave., #800
Minneapolis, Minnesota 55403
BEST & FLANAGAN, LLP
JOHN SULLIVAN, ESQ.
60 S. 6th St., #2700
Minneapolis, Minnesota 55402
*

*

*

*

*

[10] THE COURT: Let me go through these rulings,
first as to the offense conduct. The addendum to the PSR
noted that [11] Mr. Gilbertson had objected to the PSR’s
description of his offense conduct. I’m not sure to what
extent Mr. Gilbertson may be persisting in this objection,
but the objection is overruled. Based on the evidence at
trial, I find that the PSR’s description of his offense is accurate, and I find that the background details about the
prelude and aftermath of the offense are relevant.
Second as to amount of loss. Mr. Gilbertson’s most
consequential objection is to the amount of loss. Under
note 3(A) to Section 2B1.1 of the Guidelines, the loss is the
greater of actual or intended loss. Mr. Gilbertson has devoted a great deal of time and effort to arguing about the
amount of actual loss. But the PSR relies on intended
loss, specifically an intended loss amount of $32,851,800,
which is the total amount of the bonus payments that Dakota Plains became legally obligated to pay as a result of
Mr. Gilbertson’s criminal behavior.
Mr. Gilbertson attacks this amount of intended loss on
various grounds. To begin with, Mr. Gilbertson contends
that the government failed to prove that he intended to

32a
manipulate the price of Dakota Plains stock at all. I
strongly disagree. Reasonable people could disagree
about the extent to which Mr. Gilbertson’s criminal behavior actually affected the price of Dakota Plains stock during the relevant 20-day period. Although Mr. Gilbertson
(acting [12] through Mr. Hoskins) was the biggest seller—
and Mr. Gilbertson (acting through Mr. Shermeta) was
also in a sense the biggest buyer—there were other people involved in the market, and we don’t know whether or
to what extent they were being influenced by Mr. Gilbertson or by information or suspicions about Mr. Gilbertson’s
intent.
There is no doubt, however, that Mr. Gilbertson attempted to manipulate the price of Dakota Plains stock.
The evidence of Mr. Gilbertson’s intent was overwhelming
and included evidence of how Mr. Gilbertson put himself
in a position to profit from an increase in the price of Dakota Plains stock in the immediate aftermath of a reverse
merger, how he engineered the reverse merger and created conditions under which he could easily manipulate
the stock price, how he insisted on controlling the majority of the miniscule amount of freely-trading shares, and
how he controlled both the selling and the buying of those
shares through the use of straw men. Mr. Gilbertson took
action after action that would have made no sense if he
was not intending to manipulate the price of Dakota
Plains stock. I reject out of hand the argument that Mr.
Gilbertson did not intend to cause any loss.
*

*

*

*

*

[14] THE COURT: Mr. Gilbertson also contends that
he should be credited with the amount of the bonus that
would have been generated absent the manipulation. I
agree with the government, however, that Mr. Gilbertson
is not entitled to such credit, as the bonus provision itself

33a
was part of his fraudulent scheme. At the time that Mr.
Gilbertson set out upon his criminal scheme, only the junior notes contained a bonus provision, and that bonus provision applied only in the case of an initial public offering.
As part of his scheme, Mr. Gilbertson went behind the
company’s back to make preliminary arrangements for a
reverse merger, and then he induced the company to alter
the bonus provision so that would apply to both the senior
and junior notes, and so that it would apply in the event of
a reverse merger. It is clear from the evidence at trial that
these steps were taken [15] with criminal intent and in furtherance of the fraudulent scheme. In other words, but for
Mr. Gilbertson’s fraudulent scheme, he would not have
been entitled to any bonus, because none of the notes
would have entitled the noteholder to a bonus in the event
of a reverse merger.
*

*

*

*

*

[16] THE COURT: Next, the issue of restitution. Under the Mandatory Restitution Act, full restitution is required for victims of fraud notwithstanding any other provision of law. This includes expenses incurred during participation in the investigation or prosecution of the offense
or attendance at proceedings related to the offense. But
the victim’s loss [17] must be directly and proximately
caused by the offense. The government bears the burden
of proving the loss amount that was proximately caused
by the offense.
The government claims that Mr. Gilbertson owes a total of $15,310,361 in restitution. This amount consists of
$1,992,674 in interest payments made to those noteholders who elected to take their bonus payments in the form
of debt; $13,142,687 worth of shares granted to those noteholders who elected to take their bonus payment in the
form of equity; and $175,000 in legal fees that Dakota

34a
Plains incurred in cooperating with the federal criminal
investigation in this case.
As I’ve already ruled with respect to the amount of
loss, I find that every penny of the $32.8 million in bonuses
that were triggered by the reverse merger was the result
of Mr. Gilbertson’s fraudulent scheme because the reverse-merger bonus provision itself was part of that
scheme. Accordingly, all loss directly and proximately
caused by the bonus provision is compensable, and there
is no need to subtract any amount attributable to a legitimate amount of the bonus.
With respect to the interest payments, I find that they
are clearly compensable. Dakota Plains would not have
owed any bonus to any noteholder if not for the fraudulent
scheme.
[18] With respect to the shares, Mr. Gilbertson essentially argues that there is no connection between the
fraudulent scheme and the shares that Dakota Plains
later granted after the parties renegotiated the bonus several times. But this argument ignores that there would
have been nothing to renegotiate were it not for the fraudulently created bonus obligation; as I said, but for Mr. Gilbertson’s fraud, Dakota Plains would not have owed any
bonus to anyone. Dakota Plains had to grant those shares
as a direct result of the bonus, and $2.15 per share is an
eminently reasonable value to assign to those shares.
Finally, Mr. Gilbertson does not dispute that Dakota
Plains is entitled to recover the expenses it incurred in
participating in the investigation and prosecution of this
case. However, it does not appear that any back-up data
for the amount sought by the government was provided in
a timely manner to Mr. Gilbertson. Therefore, I will not
order the $175,000 to be included in the restitution

35a
amount. So, therefore, I rule that the amount of restitution owed by Mr. Gilbertson to Dakota Plains is the
amount of $15,310,361 minus $175,000.
*

*

*

*

*

[44] THE COURT: I have carefully reviewed the
presentence investigation report and the addendum to the
report. I have also read the letters submitted by Mr. Gilbertson and by others on his behalf. I am prepared to impose the sentence.
It is the judgment of the Court that you, Ryan Randall
Gilbertson, are sentenced to prison for a term of 144
months. This term consists of 60 months on Count 16 and
144 months on each of the remaining counts, all terms to
be served concurrently.
You must pay a fine in the amount of $2 million. This
amount is due and payable immediately. Your payments
should be made to the Clerk of the United States District
Court for the District of Minnesota. The interest requirement is not waived.
You must pay restitution in the amount of $15,310,361
minus $175,000—which I can’t do the math right now, but
that is the number—to Dakota Plains Holding, Inc. This
amount is due and payable immediately. The interest requirement is not waived.
If you do not pay this amount immediately, you must
make monthly payments of at least $100,000. If the probation officer determines that you are able to pay more than
$100,000 per month, then you must make restitution payments in the amount directed by the probation officer.
Your payments should be made to the Clerk of the [45]
United States District Court for the District of Minnesota
who will forward your payments to the victim.

36a
Your obligation to pay the full amount of restitution
continues even after your term of supervised release is
ended. If you have not paid the full amount of restitution
at the time your supervised release ends, you may work
with the U.S. Attorney’s Office Financial Litigation Unit
to arrange a restitution payment plan.
You must pay a special assessment in the amount of
$2,100 to the United States, due immediately.
*

*

*

*

*

